BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.

I

Records

JULIE

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief of Amicus Curiae
the City of Los Angeles in Support of Grant of Petition
for Certiorari in 19-24 7, City of Boise v. Robert Martin,
et al., were sent via Two Day Service to the U.S.
Supreme Court, and 3 copies were sent via Two Day
Service and e-mail to the following parties listed
below, this 25th day of September, 2019:
Theane Evangelis Kapur
Gibson, Dunn and Crutcher, LLP
333 South Grand Ave.
48th Floor
Los Angeles, CA 90071
(213) 229-7726
tevangelis@gibsondunn.com
Counsel for Petitioner
Michael Evan Bern
Latham & Watkins, LLP
555 11th Street NW, Suite 1000
Washington, DC 20004-1304
(202) 637-1021
michael. bern@lw.com
Counsel for Respondents

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

1

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

A. KERSHNER, J.D.

Blithe S. Bock
Assistant City Attorney
Office of the Los Angeles City Attorney
200 N. Main Street, 7th Fl.
Los Angeles, CA 90012
(213) 978-2205
blithe. bock@lacity.org

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 25, 2019.

Donna J. Wol
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

